TN

C@QCKLE

2311 Douglas Street Le ga ] Brie f s E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-831

ADAM JARCHOW, et al.,
Petitioners,

Vv.
STATE BAR OF WISCONSIN, et al.
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 29th day of January, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF AMICUS CURIAE OF LAWYERS UNITED INC. IN
SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served have been served by Priority Mail.
Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
W. PEYTON GEORGE JOSEPH ROBERT GIANNINI
907 Old Santa Fe Trail Counsel of Record
Santa Fe, NM 87505 12016 Wilshire Blvd., #5
505 984 2133 Los Angeles, CA 90025
Peyton@georgelegal.com 310 804 1814

j.r.giannini@verizon.net
ALLAN S. FALK
2010 Cimarron Dr.
Okemos, MI 48864
517 381 8449
falklaw@comcast.net

Subscribed and sworn to before me this 29th day of January, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

ene 6 Ellie Qudia-h, be

My Commission Expires Nov 24, 2020
Notary Public Affiant

 

 

39372
 

Attorneys for Petitioners

David B. Rivkin Jr. Baker & Hostetler LLP 202-861-1731
Counsel of Record 1050 Connecticut Avenue, N.W.
Suite 1100

Washington, DC 20036

drivkin@bakerlaw.com

Party name: Adam Jarchow, et al.

 

 

Attorneys for Respondents

Roberta Florence Howell Foley & Lardner LLP 608-258-4273
Counsel of Record 150 E. Gilman Street, P.O. Box 1497
Madison, WI 53701

rhowell@foley.com

Party name: State Bar of Wisconsin, et al.

 

 
